No. ____________
IN THE
SUPREME COURT OF THE UNITED STATES
JEVANTE MARCUS RICHMOND, and
ARTHUR GENE EVANS, JR.,
Petitioners,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
I, Jeremy A. Thompson, do swear or declare that on this 23rd day of July, 2021,
pursuant to Supreme Court Rules 29, I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel by
depositing via first class mail, postage prepaid and emailed as follows:
Solicitor General of the United States
Room 5616
U.S. Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 30530-0001
Email: SupremeCtBriefs@USDOJ.gov
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 23, 2021.
s/ Jeremy A. Thompson
Jeremy A. Thompson
Assistant Federal Public Defender
Counsel of Record
Office of the Federal Public Defender
1901 Assembly Street, Suite 200
Columbia, South Carolina 29201
Telephone No.: 803.765.5077
Email: Jeremy_Thompson@fd.org

